1a
APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DAMIEN FREEMAN,
Petitioner-Appellant,
v.
LYNEAL WAINWRIGHT, WARDEN,
Respondent-Appellee.
No. 18-3913

Appeal from the United States District Court
for the Northern District of Ohio at Cleveland.
No. 1:17-cv-01368—James S. Gwin, District Judge.
Argued: March 11, 2020
Decided and Filed: May 12, 2020
Before: NORRIS, DONALD, and NALBANDIAN,
Circuit Judges.

2a

COUNSEL
ARGUED: Katharine Mitchell-Tombras, COVINGTON & BURLING, LLP, Washington, D.C., for
Appellant. Jerri Fosnaught, OFFICE OF THE OHIO
ATTORNEY GENERAL, Columbus, Ohio, for
Appellee. ON BRIEF: Katharine Mitchell-Tombras,
COVINGTON & BURLING, LLP, Washington, D.C.,
for Appellant. Jerri Fosnaught, OFFICE OF THE
OHIO ATTORNEY GENERAL, Columbus, Ohio, for
Appellee.
NALBANDIAN, J., delivered the opinion of the
court in which NORRIS, J., joined. DONALD, J. (pp.
9–13), delivered a separate dissenting opinion.

OPINION

NALBANDIAN, Circuit Judge. Missed deadlines
are preventable and costly. So courts enforce them
strictly. Unfortunately for Damien Freeman, that
means the door to the federal courthouse is closed. This
case presents a single question: does a limited
resentencing that results in a better-than-before
sentence constitute a new “judgment,” as defined in 28
U.S.C. § 2244(d)(1)(A), which sets forth a one-year
limitations period for habeas petitions? We hold that it
does not, so we AFFIRM the district court’s dismissal
of Freeman’s 28 U.S.C. § 2254 petition.

Damien Freeman pleaded guilty to felony murder
in 2001. An Ohio trial court sentenced Freeman to

3a
fifteen years to life imprisonment, followed by postrelease control for the maximum period allowed by law.
Freeman failed to timely appeal.
Freeman took the proverb “if at first you don’t
succeed, try, try again” to heart. After four
unsuccessful motions to withdraw his guilty plea and
appeal belatedly, Freeman collaterally moved in state
court to vacate his conviction and sentence in 2015. He
argued the sentencing court’s imposition of postrelease control was “contrary to law” because Ohio law
does not permit post-release control for felony murder
convictions and his felony murder conviction was
improper because there was no evidence he committed
an underlying violent felony. (R. 9-2, Def.’s Mem. in
Opp’n at PageID # 150.) The state trial court disagreed
and denied his motion. But the Ohio Eighth Appellate
District Court of Appeals granted Freeman postconviction relief for the first time, at least in part. After
affirming Freeman’s conviction, that court agreed Ohio
law does not provide for post-release control for felony
murder. And it quoted State v. Opalach, No. 100938,
2014 WL 6065666, at *2 (Ohio Ct. App. Nov. 13, 2014),
in holding that “a sentencing entry that incorrectly
imposes postrelease control does not render the entire
sentence void. Only that portion of the judgment that
improperly imposes postrelease control is void.” (R. 92, Journal Entry and Op. at PageID # 234.) So the
Court of Appeals remanded Freeman’s motion with
direction “that a nunc pro tunc entry be entered to
delete the imposition of postrelease control.” (Id.)
On remand, in January 2017, the trial court
“vacated and replaced, nunc pro tunc” the journal entry
from Freeman’s original sentencing in 2001. (R. 9-2,
Journal Entry at PageID # 238.) The court’s revision
left intact its original sentencing journal entry except
for the single sentence discussing post-release control,
which it removed.

4a
After securing this partial victory, Freeman tried
another challenge, this time federal court. He filed the
28 U.S.C. § 2254 petition at issue in June 2017,
challenging his conviction, in the Northern District of
Ohio. But without reaching the merits of Freeman’s
petition, the district court granted Wainwright’s
motion to dismiss, finding that Freeman’s petition is
time barred. The court did however grant Freeman a
certificate of appealability on whether the Ohio court’s
removal of post-release control from Freeman’s
sentence created a new judgment under § 2244(d)(1).
So Freeman appeals the dismissal.

We review de novo a district court’s dismissal of a
28 U.S.C. § 2254 petition for untimeliness. Crangle v.
Kelly, 838 F.3d 673, 677 (6th Cir. 2016).
The Antiterrorism and Effective Death Penalty Act
of 1996 (AEDPA) imposes strict limits on federal
habeas corpus petitioners. Relevant here, 28 U.S.C. §
2244(d)(1) imposes a “1-year period of limitation” on all
“application[s] for a writ of habeas corpus by a person
in custody pursuant to the judgment of a State court.”
That limitations period begins to run on the latest of
four dates, but it’s uncontested here the limitations
period began to run on “the date on which the judgment
became final by the conclusion of direct review or the
expiration of the time for seeking such review[.]” §
2244(d)(1)(A).
“Final judgment in a criminal case means sentence.
The sentence is the judgment.” Burton v. Stewart, 549
U.S. 147, 156 (2007) (quoting Berman v. United States,
302 U.S. 211, 212 (1937)). And Freeman’s sentence
became final in January 2002 when he did not appeal
within thirty days. See Ohio R. App. P. 4. But
Freeman did not file his § 2254 petition until fifteen
years later. So § 2244(d)(1) would ordinarily require

5a
dismissal of the petition. In response, Freeman argues
the Ohio trial court’s revision of its sentencing journal
entry in January 2017 constituted a new “judgment”
under § 2244, thus his filing of the § 2254 petition six
months later was within § 2244(d)(1)’s one-year period
of limitation. Freeman’s argument has some appeal
but we ultimately reject it.
When courts engage in a full resentencing, the
resulting sentence is a new “judgment” that restarts §
2244(d)(1)’s timeclock. King v. Morgan, 807 F.3d 154,
156 (6th Cir. 2015). Which means the petitioner can
challenge both his new sentence and his underlying
conviction. Id. at 158. And in Crangle v. Kelly, we
extended that principle to some limited resentencings,
holding that “[a] new, worse-than-before sentence . . .
amounts to a new judgment.” 838 F.3d at 678. But to
reach that conclusion, we first had to identify the
limited resentencings that do not create new
judgments. We noted the
line of cases in which a limited
resentencing benefits the prisoner, such
as in a sentence-reduction proceeding
under 18 U.S.C. § 3582(c) or Criminal
Rule
35(b).
Such
sentence
modifications, federal law provides, do
not disturb the underlying initial
judgment,
which
continues
to
“constitute[ ] a final judgment.” 18
U.S.C. § 3582(b). As several other courts
of appeals have noted, such “a reduced
sentence [is] not a new one.”
Id. (quoting United States v. Jones, 796 F.3d 483, 485
(5th Cir. 2015)) (alteration in original). So to conclude
that a court’s addition of post-release control by nunc
pro tunc order to the petitioner’s sentence created a
new “judgment” under § 2244(d)(1), we first had to

6a
determine that the court’s action resulted in a “new,
worse-than-before sentence[.]” Id. at 678–80.
We confronted a limited resentencing resulting in a
better-than-before sentence in Eberle v. Warden,
Mansfield
Correctional
Institution—albeit
an
unpublished decision before Crangle. 532 F. App’x 605
(6th Cir. 2013). In facts much like Freeman’s, the Ohio
Court of Appeals determined that an Ohio trial court
incorrectly included post-release control in a
defendant’s sentence, so it “vacated the postreleasecontrol portion of the lower court’s sentencing entry.”
Id. at 607. The defendant then filed a § 2254 petition
more than one year after his original sentence became
final. Id. Because “no resentencing hearing was held,
no new sentencing entry was filed, and no new
judgment issued” we determined the Ohio Court of
Appeals’ “single sentence modification [was] not a new
sentence that restart[ed] the AEDPA clock.” Id. at 610.
The same holds true in Freeman’s case, especially postCrangle.
Just like Eberle, the trial court here did not hold a
resentencing hearing. Nor, in effect, did it issue a new
sentencing entry or issue a new judgment. Rather, it
made a “single sentence modification” to Freeman’s
original sentencing journal entry, striking all postrelease control. See id.; (R. 9-2, Journal Entry at
PageID # 238.) True, the trial court labeled its own
action as “vacat[ing] and replac[ing]” the original
sentencing journal entry. But as Freeman concedes, we
are not bound by the label a state court places on its
actions, instead we must look to what the court
actually did. (Appellant’s Reply Br. at 6.) After all, the
trial court only struck a single sentence from its
original journal entry without even holding a hearing.
What’s more, Ohio law tells us “a sentencing entry that
incorrectly imposes postrelease control does not render
the entire sentence void. Only that portion of the
judgment that improperly imposes postrelease control

7a
is void.” Opalach, No. 100938, 2014 WL 6065666, at *2.
So it’s clear that Freeman’s resentencing, to the extent
that term appropriately characterizes what the trial
court did, was limited.
Crangle makes clear that limited resentencings
that benefit the prisoner “do not disturb the underlying
initial judgment, which continues to constitute a final
judgment.” 838 F.3d at 678 (internal quotation marks
omitted). If adding post-release control “materially
increases the potential restrictions on [a prisoner’s]
liberty” and leaves the prisoner worse off, then
removing post-release control must materially
decrease the potential restrictions on a prisoner’s
liberty and leave the prisoner better off. Id. at 679.
Thus, the trial court’s modification of Freeman’s
sentence qualifies as a “limited resentencing [that]
benefits the prisoner,” and did not disturb Freeman’s
initial judgment. And because Freeman filed his § 2254
petition over fifteen years after that initial judgment
became final, § 2244(d)(1) requires dismissal of the
petition.
Freeman tries to avoid Crangle three ways. We
discuss each in turn.
First, Freeman argues the Crangle holding we
apply here is dicta. He says distinguishing between
sentences that leave a prisoner worse off and sentences
that leave a prisoner better off was “‘not necessary to
the outcome’ of the case and [is] therefore ‘dicta that is
not binding.’”
(Appellant’s Br. at 14 (citing United States v.
McMurray, 653 F.3d 367, 375 (6th Cir. 2011).)
Freeman gets the legal rule right but the application
wrong.
True, when an opinion discusses an issue beyond
what the court must decide in that case, those

8a
statements do not bind future panels. Haddad v.
Alexander, Zelmanski, Danner & Fioritto, PLLC, 758
F.3d 777, 781 (6th Cir. 2014) (per curiam). But we
believe that Crangle’s discussion of limited
resentencings that benefit prisoners was necessary to
determine whether an addition of post-release control
to an existing sentence created a new judgment under
§ 2244(d)(1). That’s because, as Crangle remarks, there
is a line of cases from many circuits holding that
various forms of sentence modifications and reductions
do not disturb the underlying judgment. See 838 F.3d
at 678. So to not flout these precedents, we had to
explain that it is not just the limited nature of these
resentencings that explains why they do not create a
new judgment. Rather, it is the combination of their
limited nature and beneficial result for the prisoner.
See id. And, in fact, we framed the “final question” as
whether the sentence modification at issue there
created a “new, worse-than-before sentence[.]” See id.
at 678–79. This seminal issue was not dicta, but a
question we had to reach. So our answer then binds us
now.1
Second, Freeman says Crangle’s statement “that its
holding is limited to new, worse-than before sentences
is inconsistent with both binding Supreme Court
precedent and persuasive authority from other
Circuits. Those decisions compel the conclusion that
any substantive re- sentencing—even one favorable to
a petitioner—constitutes a new judgment, resetting
the statute of limitations clock.” (Appellant’s Br. at 16–
17 (internal quotation marks omitted).) He cites two
As we discuss below, Supreme Court and Sixth
Circuit precedent, other than Crangle, do not address
the question presented here. So if Freeman were
correct that the portion of Crangle we rely on is dicta,
than this would be a question of first impression for our
Circuit. Even if that were the case, we would reach the
same result as the panel in Crangle.
1

9a
Supreme Court cases Crangle allegedly violates. First
is Burton v. Stewart, 549 U.S. 147 (2007). Freeman
argues that because the Court in Burton held that a
resentencing that increased a prisoner’s potential early
release credits created a new judgment under AEDPA,
Crangle’s distinction between resentencings that leave
a prisoner better off and those that leave a prisoner
worse off cannot be correct. But that ignores the first
aspect of Crangle’s holding.
Under King, any full resentencing creates a new
judgment for AEDPA purposes. See 807 F.3d at 156.
Crangle only says limited resentencings that provide a
prisoner with a better- than-before sentence do not
create new judgments. See 838 F.3d at 678. In the state
court proceedings underlying Burton, a Washington
trial court engaged in a full resentencing on remand.2
See generally State v. Burton, 101 Wash. App. 1041
(2000) (discussing the resentencing procedure
employed on remand). So Burton confirms our holding
in King and is consistent with Crangle.
Next Freeman claims Crangle violates Magwood v.
Patterson, 561 U.S. 320 (2010). He says that because a
resentencing resulting in the same sentence as the
original sentence constituted a new judgment in
Magwood, it can’t be true that a prisoner must be left
worse off for a resentencing to create a new judgment
under AEDPA. But an Alabama court conducted a full
resentencing for Magwood. See Magwood v. State, 548
The dissent’s lengthy discussion of Burton omits this
key difference between that case and ours. Because
Burton dealt with a full resentencing it did not
“directly” address the question presented here:
whether limited resentencings that result in betterthan-before sentences for the prisoner constitute new
judgments under § 2244(d)(1)(A). And because Burton
is distinguishable it does not bind us here.

2

10a
So. 2d 512, 513 (Ala. Crim. App. 1988). So again,
Crangle accords with Supreme Court precedent.
Finally, we note that “we need not look [elsewhere]
when binding precedent from our own Circuit answers
the question.” United States v. Cavazos, 950 F.3d 329,
336 (6th Cir. 2020). Because Crangle binds us, any
persuasive authority from other Circuits is irrelevant.
But it is relevant that we have consistently applied
Crangle to cases like Freeman’s, albeit in unpublished
orders. See, e.g., In re Robinson, No. 18-4210, 2019 U.S.
App. LEXIS 14685, at *4–5 (6th Cir. May 16, 2019);
Martin v. Phillips, No. 17-5499, 2018 WL 5623651, at
*2 (6th Cir. July 13, 2018); Cortez v. Warden
Chillicothe Corr. Inst., No. 17-3530, 2018 U.S. App.
LEXIS 27015, at *3–4 (6th Cir. Feb. 16, 2018); In re
Lloyd, No. 17-4014, 2018 U.S. App. LEXIS 1990, at *3
(6th Cir. Jan. 25, 2018).
As a last-ditch effort, Freeman puts forth several
“practical considerations” he claims bolster his
position. But “[t]he text is the law, and it is the text
that must be observed.” Appoloni v. United States,
450 F.3d 185, 199 (6th Cir. 2006) (Griffin, J.,
concurring in part) (quoting Antonin Scalia, A Matter
of Interpretation: Federal Courts and the Law 22–23
(1997)). So the statutory text and precedents
interpreting that text must guide us. Weighing
practical considerations is the responsibility of
Congress, not the judiciary. See Georgia v.
Public.Resource.Org, Inc., --- S. Ct. ----, 2020 WL
1978707 at *9 (Apr. 27, 2020) (“It is generally for
Congress, not the courts, to decide how best to pursue
[a statute’s] objectives. And that principle requires
adherence to precedent when, as here, we have
construed the statutory text and tossed the ball into
Congress’s court, for acceptance or not as that branch
elects.” (cleaned up)).

11a

For these reasons, we AFFIRM the district court’s
dismissal of Freeman’s 28 U.S.C. § 2254 petition
because it is time barred.

12a

DISSENT

BERNICE BOUIE DONALD, dissenting. I disagree
with the majority’s conclusion that Crangle v. Kelly,
838 F.3d 673 (6th Cir. 2016) necessitates its holding.
In determining so, the majority’s decision conflicts with
Supreme Court precedent. Therefore, I dissent.
In Crangle, we reversed the district court’s holding
that Crangle’s 28 U.S.C. § 2254 petition was untimely.
838 F.3d at 675. The timeliness of Crangle’s petition
hinged on whether the recent change to his sentence—
the imposition of post-release control—constituted a
new judgment under 28 U.S.C. § 2244(d)(1)(A). Id. We
held that “[a] new, worse-than-before sentence . . .
amounts to a new judgment.” Id. at 678. Because
Crangle’s nunc pro tunc order, adding post-release
control, increased the restrictions on his liberty, it
constituted a worse-than-before sentence and
amounted to a new judgment, restarting his §
2244(d)(1)(A) clock. Id. at 679-80.
Crangle tells us that a nunc pro tunc order changing
the imposition of post-release control, but otherwise
keeping a defendant’s sentence intact—what the
majority considers a “limited resentencing”—
constitutes a new judgment because the change
amounts to “a material difference in [a defendant’s]
conditions of confinement.” Id. at 680. Crangle answers
whether a defendant is subject to a new judgment
when the change to the defendant’s sentence is worsethan-before. What about, as here, where the

13a
defendant’s sentence may be characterized as betterthan-before? Is the answer any different?3
As the majority points out, Crangle also answers
that question, but it does so unnecessarily. The
majority claims that, in order to reach Crangle’s
holding, “we first had to identify the limited
resentencings that do not create new judgments.” Op.
at 4. But that is simply not true. We acknowledged as
much in Crangle, noting that, “[o]ur analysis is
consistent with a line of cases in which a limited
resentencing benefits the prisoner . . . .” Id. at 678
(emphasis added and removed). The majority failed to
include this prelude to Crangle’s discussion, which
emphasizes that its analysis is “consistent with a line
of cases” answering a different question than the one
posed, based on different circumstances. That is
dictum. “Strictly speaking an obiter dictum is a
remark made or opinion expressed by a judge, in his
decision upon a cause, by the way—that is, incidentally
or collaterally, and not directly upon the question
before the court . . . .” PDV Midwest Ref., L.L.C. v.
Armada Oil & Gas Co., 305 F.3d 498, 510 (6th Cir.
2002) (quoting Black’s Law Dictionary, 1100 (7th ed.
1999)). Whether a better-than-before sentence
constitutes a new judgment was not the question
before us in Crangle. Unlike mere dicta, the binding
aspect of a court’s holding is “necessary to” its outcome.
United States v. McMurray, 653 F.3d 367, 375-76 (6th
Cir. 2011). Contrary to the majority’s construction,
“consistent with” does not have the same meaning as
“necessary to.” It is not necessary to define the
incidental or collateral bounds of the answer to a
question in order to answer it.

The majority ignores a third question: What about
when it is unclear whether the sentence is better- or
worse-than-before?
3

14a
While Crangle answered our question in dictum,
the Supreme Court was confronted with the question
directly. In Burton v. Stewart, 549 U.S. 147 (2007), a
case upon which Crangle relied, the Supreme Court
was faced with determining whether the petitioner’s
amended, better- than-before sentence constituted a
new judgment for the purposes of § 2244. Although the
Supreme Court ultimately held that the district court
lacked jurisdiction to consider Burton’s petition, in
doing so, the Court determined that Burton’s betterthan-before sentence—increasing his eligibility for
early release credits—amounted to a new judgment.
Burton, 549 U.S. at 156- 57.
In 1994, a state trial court sentenced Burton to a
562-month sentence for rape, robbery, and burglary,
based on two alternative grounds under Washington’s
sentencing scheme— running all three counts
consecutively for a total of 562 months or, in the
alternative, imposing an “exceptional sentence of 562
months solely for the rape conviction” with the other
sentences running concurrently. Id. at 149-50. In 1996,
after a prior, unrelated conviction was overturned,
Burton received an amended judgment and sentence,
which “imposed a new sentence that relied solely on an
exceptional 562-month sentence for the rape
conviction, run concurrently with the other two terms.”
Id. at 150. On direct review, the state appellate court
upheld Burton’s conviction, but remanded for
resentencing because the trial court’s exclusive
reliance on the exceptional rape sentence decreased
Burton’s potential early release credits. Id. In 1998,
the trial court entered a second amended judgment and
sentence, again imposing a 562-month sentence, but
this time reverting to its original ground—running the
three counts consecutively. Id. at 151.
Importantly, because of the adjusted basis of his
sentence under the 1998 judgment, Burton became
eligible for early release credits for up to thirty-three

15a
percent of his sentence, whereas when he was charged
solely based on the rape count pursuant to the 1996
judgment his early release credit could not exceed
fifteen percent of his term. Washington v. Burton, No.
35747-6-I, 1997 Wash. App. LEXIS 933, at *14 (Ct.
App. June 9, 1997). Burton therefore received a less
severe, better-than-before sentence. Id. at *37-38
(“Because the [1996 sentence] is more severe than the
[1994] sentence in its implications for potential good
time, we . . . vacate the sentence and remand.”).
While Burton’s direct appeal of this new sentence
was pending, he filed a § 2254 petition in the federal
district court, challenging his custody by disputing the
constitutionality of his three convictions, but not
addressing his sentencing claims. Burton, 549 U.S. at
151. The district court denied his petition, and the
Ninth Circuit affirmed on appeal. Id. In 2002, Burton
filed another § 2254 petition, now challenging the
constitutionality of his 1998 sentence. Id. at 151-52.
The district court again denied his petition, and the
Ninth Circuit affirmed on appeal. Id. at 152. The
Supreme Court granted certiorari, holding that
“because the 2002 petition is a ‘second or successive’
petition that Burton did not seek or obtain
authorization to file in the District Court, the District
Court never had jurisdiction to consider it in the first
place.” Id. In making this holding, it was necessary for
the Court to address Burton’s argument that his
instant petition was not a second or successive petition
because it challenged a different judgment than his
earlier petition:4
But this argument misreads AEDPA,
which states that the limitations period
Specifically, Burton claimed that his 1998 petition
was filed pursuant to his 1994 judgment, while the
instant 2002 petition challenged his 1998 judgment.
Id. at 155-56.
4

16a
applicable to “a person in custody
pursuant to the judgment of a State
court” shall run from, as relevant here,
“the date on which the judgment
became final by the conclusion of direct
review or the expiration of the time for
seeking such review.” § 2244(d)(1)(A).
Final judgment in a criminal case
means sentence. The sentence is the
judgment.
Accordingly,
Burton’s
limitations period did not begin until
both his conviction and sentence became
final by the conclusion of direct review
or the expiration of the time for seeking
such review—which occurred well after
Burton filed his 1998 petition.
Id. at 156-57 (internal citations and quotations
omitted).
The Supreme Court’s holding that the district court
did not have jurisdiction to consider Burton’s second or
successive petition required a finding that Burton’s
better-than-before 1998 judgment, increasing his early
release credit, constituted a new judgment. Id.
Consider it the other way: if the Supreme Court did not
decide that Burton had received a new judgment in
1998 because it was better than his 1996 judgment,
then Burton’s petition would have been untimely as it
would have been filed more than one year after the
limitations period.5 Had that been the Supreme Court’s
If this was the case, Burton’s 1996 judgment would
have become final on April 20, 1998, when the Supreme
Court denied his petition for writ of certiorari to the
Court of Appeals of Washington. Burton v.
Washington, 523 U.S. 1082 (1998) (denying cert.).
Therefore, the time for Burton to file his instant
petition would have expired on April 20, 1999, long
before he filed the petition in 2002.
5

17a
reasoning, then the Court would have had no need to
address the second or successive petition argument.
Burton thus necessitates that whether a new
sentence is better or worse for the petitioner is not an
element of whether a new sentence constitutes a new
judgment for the purposes of § 2244. Whatever dicta
was added in Crangle regarding differences between
better- or worse- than-before sentences is contrary to
the Supreme Court’s binding precedent. As previously
examined, Crangle declared that a change, even a
“limited” one, such as to a defendant’s post- release
control is “a material difference in [the defendant’s]
conditions of confinement” which constitutes a new
judgment. Id. at 680. Therefore, because Freeman’s
June 28, 2017, petition was filed within one year of his
new judgment becoming final on December 27, 2016,
Freeman’s petition was filed within the one-year
limitations period imposed by 28 U.S.C. § 2244(d)(1).
This view is also consistent with the precedent of
several of our sister circuits. See Gonzalez v. Sherman,
873 F.3d 763, 765-66 (9th Cir. 2017) (finding that
petitioner’s new sentence crediting 554 days of
presentence credit compared to his previous sentence
crediting 533 days amounted to a new judgment); In re
Gray, 850 F.3d 139, 140 (4th Cir. 2017) (holding that
petitioner’s new sentence of life imprisonment
compared to his previous sentence of death constituted
a new judgment); Insignares v. Sec’y, Fla. Dep’t of
Corr., 755 F.3d 1273, 1275-76 (11th Cir. 2014) (per
curiam) (concluding that petitioner’s new sentence of
twenty-seven years’ imprisonment compared to his
previous sentence of forty years’ imprisonment,
resulted in a new judgment).
The majority is right: the text is the law. But we are
bound by this Court and the Supreme Court’s
precedential interpretations of that text. Although we
have failed to apply Burton’s holding in a number of

18a
unpublished post-Crangle opinions, see Op. at 7, the
only thing worse than making those errors is
continuing to defend them when the answer is now
clear. I would VACATE the district court’s dismissal
of Freeman’s § 2254 petition and REMAND it for
reconsideration.

19a
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-3913
DAMIEN FREEMAN,
Petitioner-Appellant,
v.
LYNEAL WAINWRIGHT, WARDEN,
Respondent-Appellee.
Before: NORRIS, DONALD, and
NALBANDIAN, Circuit Judges.

JUDGMENT
On Appeal from the United States District Court
for the Northern District of Ohio at Cleveland.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED
that the district court’s dismissal of Damien Freeman’s
petition under 28 U.S.C. § 2254 is AFFIRMED.
ENTERED BY ORDER OF THE COURT

/s/
Deborah S. Hunt, Clerk

20a
APPENDIX B

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
DAMIEN FREEMAN,
Petitioner,
v.
WARDEN LYNEAL WAINWRIGHT,
Respondent.
Case No. 1:17-CV-1368
Opinion & Order
[Resolving Doc. 1]
JAMES S. GWIN, UNITED STATES DISTRICT
JUDGE:
On December 11, 2001, Petitioner Damian
Freeman plead guilty to the murder of elevenmonth-old Ciera Freeman and an Ohio court
sentenced him fifteen years to life. Proceeding pro
se, on June 28, 2017, he petitioned the Court for a
writ of habeas corpus under 28 U.S.C. § 2254.1 The
State filed a motion to dismiss,2 which Freeman

1
2

Doc. 1.
Doc. 9.

21a
opposed.3 Magistrate Judge William H. Baughman
Jr. recommends denying his petition,4 and Freeman
objects.5
For
the
following
reasons,
the
Court
OVERRULES Petitioner’s objections, ADOPTS
Magistrate Judge Baughman’s Report and
Recommendation, and DENIES the Petition.
I. BACKGROUND
Freeman’s Petition to vacate a 2001 conviction
raises obvious statute of limitations issues. A habeas
petition filed under § 2254 is subject to a one-year
limitations period. 28 U.S.C. § 2244(d)(1).
In September 2001, a Cuyahoga County Grand
Jury indicted Petitioner Freeman for felony
murder,6 felonious assault,7 and endangering
children.8 The indictment came after the August 23,
2001 death of 11-month-old Ciera Freeman.9 On
December 11, 2001, Freeman pled guilty to the
felony murder count and the Cuyahoga Court of
Common Pleas nolled10 the other two counts. The
court then sentenced Freeman to an indeterminate
sentence of fifteen years to life and a term of postrelease control.11

Doc 10
Doc 11.
5 Doc 13.
6 O.R.C. 2903.02(B)
7 O.R.C. 413757
8 O.R.C. 2919.22
9 See Doc. 9-2 (state court record) at 1-3.
10 “[T]o abandon (a suit or prosecution); to have (a case)
dismissed by a nolle prosequi.” Black’s Law Dictionary
(8th ed. 2004).
11 Doc. 9-2 at 6.
3
4

22a
On August 7, 2002, Freeman moved the
Cuyahoga Court of Common Pleas to withdraw his
plea and appeal his conviction;12 the Court of
Appeals of Ohio denied this motion in September of
2002.13 In March and July of 2004, Freeman moved
again to withdraw his guilty plea under Ohio Rule
of Criminal Procedure 32.1. These motions were
denied, and the Eighth Appellate District of the
Court of Appeals of Ohio dismissed his appeal sua
sponte on April 15, 2005.14 Freeman did not appeal
this Court of Appeals dismissal decision.
On September 15, 2015, Freeman filed a pro se
motion with the Cuyahoga Court of Common Pleas
to vacate his conviction and sentence.15 On October
15, 2015, the court denied Freeman’s motion.16
Freeman appealed; on December 15, 2016, the
Eighth Appellate District of the Court of Appeals of
Ohio affirmed his conviction.17 However, the court
held that the trial court’s imposition of post-release
control was improper, and directed the trial court to
enter a nunc pro tunc order removing the imposition
of post-release control.18 Otherwise, the Ohio Court
of Appeals affirmed the 2001 sentence. On
December 27, 2016, the Court of Common Pleas
journalized this nunc pro tunc order, vacating his
original sentence and replacing it with an order that
did not include post-release control.19
Freeman appealed the appeals court’s decision to
the Ohio Supreme Court. On May 31, 2017, the Ohio
Id. at 7.
Id. at 14.
14 Id. at 22.
15 Id. at 23
16 Id. at 60.
17 Id. at 150.
18 Id.
19 Id. at 152.
12
13

23a
Supreme Court declined to exercise jurisdiction over
the appeal.20
Freeman filed his habeas petition with the Court
on June 28, 2017.21
In a July 30, 2018 Report and Recommendation,
Magistrate Judge Baughman recommended that the
Court dismiss Freeman’s petition as untimely,
because it was filed beyond the one-year limitations
period imposed by 28 U.S.C. § 2244(d)(1). Petitioner
objected.
II. DISCUSSION
The Federal Magistrates Act requires a district
court to conduct a de novo review only of those
portions of the Report and Recommendation to
which the parties have objected.22
Freeman raises two objections to Magistrate
Judge Baughman’s Report and Recommendation.
First, he argues that the December 27, 2016 nunc
pro tunc order qualifies as a new judgment restarting 28 U.S.C. § 2244(d)(1)(A)’s one-year statute
of limitations, making his petition timely. Second,
he argues that the nunc pro tunc order was unlawful
because it substantively changed his sentence.
Petitioner’s first objection is overruled. Under 28
U.S.C. § 2244(d)(1)(A), the one-year statute of
limitations for federal habeas relief began to run
when “the [petitioner’s] judgment became final by
the conclusion of direct review or the expiration of
the time for seeking such review.” Under this
provision, the one-year limitations period began to
Doc. 1-2.
Doc. 1.
22 See 28 U.S.C. § 636(b)(1).
20
21

24a
run—at the latest—in 2005, when the time to appeal
the Court of Appeal’s denial of his motion to
withdraw his guilty plea expired.23
Petitioner, relying on the Sixth Circuit’s decision
Crangle v. Kelly,24 argues that the nunc pro tunc
order modifying his sentence is a new judgment
reviving the statute of limitations.25 However, the
Crangle court noted that resentencings which
benefit the petitioner “do not disturb the final
underlying initial judgment, which continues to
‘constitute[] a final judgment.’”26 And in Cortez v.
Warden Chillicothe Correctional Institution, the
Sixth Circuit held that resentencings which remove
post-conviction sentencing provisions do no restart
the statute of limitations for habeas relief.27
Freeman’s second objection is also overruled. His
objection to the entry of the nunc pro tunc order
seemingly turns on the idea that the order was used
improperly, because it altered the substantive terms
of his sentence instead of correcting a clerical
See Gonzalez v. Thaler, 132 S. Ct. 641, 646 (2012)
(“[F]or a state prisoner who does not seek review in a
State’s highest court, the judgment becomes ‘final’ [for
the purposes of § 2244(d)(1)(A)] on the date that the
time for seeking such review expires.”).
24 838 F.3d 673 (6th Cir. 2016).
25 See Crangle, 838 F.3d at 680 (nunc pro tunc order
imposing post-release control materially increased
restrictions on petitioner’s liberty, and thus
constituted a new sentence resetting one-year statute
of limitations under § 2244(d)(1)(A)).
26 Id. at 678 (alteration in original) (quoting 18 U.S.C.
§ 3582(b)).
27 Cortez v. Warden Chillicothe Corr. Inst., No. 17-3530,
2018 WL 2382456, at *2 (6th Cir. Feb. 16, 2018) (order
removing requirement that petitioner register as a sex
offender does not restart statute of limitations).
23

25a
error.28 Whatever the merits of this argument, it
does not allege an injury. Invalidating the nunc pro
tunc order would not benefit Freeman, as the order
vacated the portion of his original sentence that
imposed post-release supervision.
Freeman’s petition also raises arguments
regarding the substantive sufficiency of his guilty
plea under state law. Even if Freeman’s petition
were not time-barred, the Court could not consider
these arguments because they do not raise
constitutional claims.29 Furthermore, the 2016 Ohio
Court of Appeals decision considered and rejected
Freeman’s claims regarding the legal sufficiency of
his plea.30
III. CONCLUSION
For the reasons stated above, the Court DENIES
Freeman’s petition for a writ of habeas corpus.

He did not raise this argument in his petition, and
Magistrate Judge Baughman did not discuss it in his
Report and Recommendation.
29 See 28 U.S.C. § 2254(a) (“[A] district court shall
entertain an application for a writ of habeas corpus on
behalf of a person in custody pursuant to the judgment
of a State court only on the ground that he is in custody
in violation of the Constitution or laws or treaties of
the United States.”). Although couched as a claim
about the effectiveness of his counsel, Freeman’s
petition challenges the legal sufficiency of his plea and
not the assistance of his lawyer.
30 See Doc. 9-2 at 149. See also Davis v. Straub, 430
F.3d 281, 291 (6th Cir. 2005) (federal court may not
grant writ on the grounds that state court erred in
interpretation of its own law).
28

26a

IT IS SO ORDERED

Dated: September 10, 2018 /s/
JAMES S. GWIN
UNITED STATES
DISTRICT JUDGE

27a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
:
:
DAMIEN FREEMAN,
: CASE NO.
: 1:17-CV-1368
:
Petitioner,
:
:
vs.
: JUDGMENT
:
WARDEN LYNEAL
:
WAINWRIGHT,
:
:
Respondent.
:

JAMES S. GWIN, UNITED STATES DISTRICT
JUDGE:
The Court has issued its opinion in the abovecaptioned matter. For the reasons stated in that
opinion, the court ADOPTS Magistrate Baughman’s
Report and Recommendation and DENIES the petition
for a writ of habeas corpus.
The Court will now GRANT a certificate of
appealability on the issue of whether the Ohio Court of
Appeals’ December 15, 2016 decision removing postrelease control from Freeman’s sentence restarts the
one-year statute of limitations under § 2244(d)(1)(A).
The Court DENIES a certificate of appealability on any
other issues Freeman has attempted to raise because
an appeal of those issues could not be taken in good
faith.
Accordingly, this action is terminated under
Federal Rule of Civil Procedure 58.

28a
IT IS SO ORDERED.

Dated: September 10, 2018

/s/
JAMES S. GWIN
UNITED STATES
DISTRICT JUDGE

29a
APPENDIX C

THE SUPREME COURT OF OHIO

STATE OF OHIO
Plaintiff,
v.
DAMIEN FREEMAN,
Defendant.
Case No. 2017-0144
Entry
Upon
consideration
of
the
jurisdictional
memoranda filed in this case, the court declines to
accept jurisdiction of the appeal pursuant to S.Ct.
Prac.R. 7.08(B)(4).
(Cuyahoga County Court of Appeals; No. 103660)
/s/___________________________
Maureen O’Connor
Chief Justice

30a
APPENDIX D

IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
STATE OF OHIO
Plaintiff,
v.
DAMIEN FREEMAN,
Defendant.
CR-01-413757-ZA
Journal Entry
ON 12/15/2016 THE EIGHTH DISTRICT COURT
OF APPEALS, IN CASE NUMBER 103660,
REMANDED THIS CASE TO THE COURT OF
COMMON PLEAS WITH INSTRUCTIONS TO PREP
ARE A NUNC PRO TUNC SENTENCING ENTRY TO
VACATE THE IMPROPER IMPOSITION OF
POSTRELEASE CONTROL. THE ORIGINAL ENTRY
AROSE FROM PROCEEDINGS TAKING PLACE ON
DECEMBER 11, 2001 AND JOURNALIZED ON
DECEMBER 14, 2001.
ACCORDINGLY, THE ENTRY JOURNALIZED
12/14/2001 IS HEREBY VACATED AND REPLACED,
NUNC PRO TUNC, WITH THE FOLLOWING:

31a
DEFENDANT IN COURT WITH COUNSEL
DARYL DENNIE. PROSECUTING ATTORNEY
EDWARD WALSH ALSO PRESENT.
DEFENDANT
WAS
ADVISED
OF
ALL
CONSTITUTIONAL RIGHTS AND PENALTIES.
DEFENDANT RETRACTS FORMER PLEA OF
NOT GUILTY AND ENTERS A PLEA OF GUILTY TO
MURDER ORC 2903.02 (B) SENATE BILL TWO AS
CHARGED IN COUNT ONE.
COURT FINDS DEFENDANT GUILTY. COUNTS
TWO AND THREE ARE NOLLED.
DEFENDANT AND PROSECUTOR ADDRESS
THE COURT.
THE COURT CONSIDERED ALL OF THE
REQUIRED FACTORS OF THE LAW.
THE COURT FINDS THAT PRISON IS
CONSISTENT WITH THE PURPOSES OF R. C.
2929.11.
THE COURT IMPOSES A PRISON TERM AT THE
LORAIN CORRECTIONAL INSTITUTION OF 15
YEARS TO LIFE.
DEFENDANT TO RECEIVE l03 DAYS JAIL TIME
CREDIT THROUGH DECEMBER 11, 2001.
DEFENDANT IS TO PAY COURT COSTS.
12/27/2016
CPJPO 12/27/2016 16:33:44
/s/___________________________
Judge Signature
01/03/2017

32a
APPENDIX E

COURT OF APPEALS OF OHIO
EIGHTH APPELLATE DISTRICT
COUNTY OF CUYAHOGA
JOURNAL ENTRY AND OPINION
No. 103660
STATE OF OHIO,
Plaintiff-Appellee,
v.
DAMIEN FREEMAN,
Defendant-Appellant.
CR-01-413757-ZA
JUDGEMENT:
AFFIRMED IN PART, VACATED IN PART,
AND REMANDED
BEFORE: Laster Mays, J., Keough, P.J., and E.T.
Gallagher, J.
RELEASED AND JOURNALIZED: December 15,
2016

33a
ATTORNEYS FOR APPELLANT
Robert L. Tobik
Cuyahoga County Public Defender
By: Jeffrey Gasmo
Assistant Public Defender
310 Lakeside Avenue, Suite 200
Cleveland, Ohio 44113
John P. Parker
988 East 185th Street
Cleveland, Ohio 44119
ATTORNEYS FOR APPELLEE
Timothy J. McGinty
Cuyahoga County Prosecutor
By: Brett Hammond
Assistant County Prosecutor
Justice Center, 9th floor
1200 Ontario Street
Cleveland, Ohio 44113

34a
ANITA LAST MAYS, J.:
{§1} Defendant--appellant, Damien Freeman
(“Freeman’’), proceeding pro se, appeals from the trial
court’s denial of his motion to vacate a noncognizable
offense and motion for sentencing. We affirm the trial
court’s decision, but remand for the limited purpose of
vacating the imposition of postrelease control.
I. FACTS AND BACKGROUND
{§2} In September 2001, at the age of 24, appellant
was indicted by the Cuyahoga County Grand Jury for
allegations surrounding the August 23, 2001 death of
Ciera Freeman, 11 months of age. Appellant was
charged with murder (R.C. 2903.02(B)), felonious
assault (R.C. 2903.11), and endangering children (R.C.
2919.22).
{§3} Counsel was appointed and, after several
pretrials, and discovery, the trial court determined
that appellant was competent to stand trial. On
December 11, 2001, appellant retracted his not guilty
plea. Appellant pled guilty to the murder charge {R.C.
2903.02(B)), and the trial court nolled the remaining
charges.
{§4} On December 11, 2001, appellant was
sentenced to a 15 years-to-life prison term at the
Lorain Correctional Institution with 103 days of jailtime credit. The entry also provided that “postrelease
control is part of this prison sentence for the maximum
period allowed for the above felony(s) under R.C.
2967.28.”
{§5} On September 3, 2002, this court dismissed
appellant’s pro se motion for delayed appeal and
appointment of counsel pursuant to App.R. 5(A). On
April 5, 2004, and August 4, 2004, appellant’s motions

35a
to withdraw his plea pursuant to Crim.R. 32.1 were
denied.
{§6} Appellant’s motion for the court reporter’s
transcript was denied on January 25, 2005, and his pro
se appeal filed February 15, 2005, was sua sponte
dismissed by this court on April 15, 2005, for failure to
file a praecipe pursuant to Loc.App.R. 9(B).
{§7} On September 15, 2015, appellant filed a pro
se “motion for vacation of noncognizable offense and
motion for sentencing (for vacation of unauthorized
imposition of postrelease control).” The motion, partly
based on State v. Nolan, 141 Ohio St.3d 454, 2014Ohio-4800, 25 N.E.3d 1016,1 was denied on October 2,
2015. Appellant filed the instant appeal on October 23,
2015, the oral argument for which was continued to
allow appointment of counsel.
II. ASSIGNMENTS OF ERROR
{§8} Appellant appeals, proffering the following
assignments of error:
I.

The trial court committed error when it
informed Mr. Freeman that it would impose
and then did impose, as part of his sentence
for murder, a period of postrelease control.

II.

The trial court erred in finding appellant
guilty of felony murder under R.C.
2903.02(B) where appellant was not, and
could not have been, found guilty of an
underlying felony.

It appears in appellant’s most recent brief that the
Nolan argument has been abandoned because Nolan
held that attempted felony murder is not a cognizable
crime in Ohio (R.C. 2903.02(B)), which does not apply
to this case.
1

36a
III. LAW AND ANALYSIS
A
Assignment of Error No. I
{§9} Appellant first argues that his conviction
should be vacated and a new trial awarded due to the
trial court’s failure to properly advise him of
postrelease control; therefore, his plea was not
knowingly, intelligently and voluntarily made. We
acknowledge the state’s position that this argument
may be barred by res judicata, because the issue could
have been raised on direct appeal. State v. Ketterer, 126
Ohio St.3d 448, 2010-Ohio-3831, 935 N.E.2d 9, § 59
(res judicata bars the assertion of claims in a motion to
withdraw a guilty plea that was, or could have been,
raised in a prior proceeding.) However, in light of the
specific facts of this case, we will address the
argument. We find that the argument lacks merit.
{§10} Appellant relies on State v. Rembert, 8th Dist.
Cuyahoga No. 99707, 2014-Ohio-300, § 24, where
Rembert challenged the validity of his plea due to the
trial court’s failure to provide proper instruction
regarding postrelease control and parole. We
determined that Rembert’s plea was knowingly,
intelligently, and voluntarily made. Our analysis in
Rembert applies here, but not to appellant’s benefit,
because our decision does not entitle appellant to a new
trial.
{§11} Appellant was sentenced to 15 years to life,
and advised that “postrelease control is part of this
prison sentence for the maximum period allowed for
the above felony(s) under R.C. 2967.28.” As we
acknowledged in Rembert, who was sentenced to life
imprisonment with parole eligibility after 25 years,
“because parole is not certain to occur, the trial court
would not be required to explain it in the plea
colloquy.” Id. at § 27.

37a
{§12} R.C. 2967.8 does not provide: for postrelease
control for felony murder; therefore, it was error to
impose postrelease control in this case. State v. Davis,
8th Dist. Cuyahoga No. 95440, 2011-Ohio-2526, § 13.
However, appellant has not been prejudiced thereby.
State v. Stokes, 8th Dist. Cuyahoga No. 93154, 2010Ohio-3181, § 9. In addition:
[A] sentencing entry that incorrectly
imposes postrelease control does not
render the entire sentence void. State v.
Fischer, 128 Ohio St.3d 92, 2010-Ohio6238, 942 N.E.2d 332, § 26. Only that
portion of the judgment that improperly
imposes postrelease control is void. Id.;
[State] v. Evans, ·8th Dist. Cuyahoga
No. 95692, 2011-Ohio-2153, § 8-9.
State v. Opalach, 8th Dist. Cuyahoga No. 100938,
2014-Ohio-5037, § 8.
{§13} The state has conceded this portion of the
error. We thus direct that a nunc pro tunc entry be
entered to delete the imposition of postrelease control.
“A trial court may use a nunc pro tunc entry to correct
mistakes in judgments, orders, and other parts of the
record so the record speaks the truth. State v. Spears,
8th Dist. Cuyahoga No. 94089, 2010-Ohio-2229, § 1.”
State v. Davis, 8th Dist. Cuyahoga No. 95440, 2011Ohio-2526, § 15.
B
Assignment of Error No. II.
{§14} Appellant’s second assigned error challenges
the felony murder conviction. We find that this error
lacks merit.
{§15} Appellant
2903.02(B):

was

convicted

under

R.C.

38a
(B) No person shall cause the death of
another as a proximate result of the
offender’s committing or attempting to
commit an offense of violence that is a
felony of the first or second degree and
that is not a violation of section 2903.03
or 2903.04 of the Revised Code.
{§16} As the state aptly observes, appellant’s guilty
plea is a complete admission of guilt. In exchange for
the guilty plea to felony· murder, the remaining
charges were nolled. By law, appellant’s guilty plea
constitutes a waiver of the asserted error here:
[A] defendant waives all appealable
errors that may have occurred at trial
when he or she enters a guilty plea as
part of a plea bargain, unless the
purported errors are shown to have
precluded the defendant from entering
a knowing and voluntary plea. State v.
Brusiter, 8th Dist. Cuyahoga No. 98614,
2013-Ohio-1445,
§
5;
State
v.
Milczewski, 8th Dist. Cuyahoga No.
97138, 2012-Ohio-1743, § 5, citing State
v. Kelley, 57 Ohio St.3d 127, 566 N.E.2d
658 (1991).
(Emphasis added.) State v. Davis, 8th Dist. Cuyahoga
No. 101502, 2015-Ohio-1144, § 13.
{§17} In addition, a plea bargain is a matter of
contract, which is enforceable by its terms. See State v.
Dunbar, 8th Dist. Cuyahoga No. 87317, 2007-Ohio1693, § 16, citing State v. Carpenter, 68 Ohio St.3d 59,
61, 623 N.E.2d 66 (1993).
{§18} Based on the foregoing, we find that the
appellant’s second assigned error fails.

39a
IV. CONCLUSION
{§19} Appellant’s convictions are affirmed;
however, we remand the case to the trial court to issue
a nunc pro tunc entry deleting the imposition of
postrelease control.
{§19} Judgment is affirmed in part, vacated in part,
and remanded.
It is ordered that appellee and appellant share
equally the costs herein taxed.
The court finds there were reasonable grounds for
this appeal.
It is ordered that a special mandate issue out of this
court directing the common pleas court to carry this
judgment into execution.
A certified copy of this entry shall constitute the
mandate pursuant to Rule 27 of the Rules of Appellate
Procedure.
/s/___________________________
ANITA LASTER MAYS, JUDGE
KATHLEEN AN KEOUGH, P.J.,
and EILEEN T. GALLAGHER, J.,
CONCUR

40a
APPENDIX F

IN THE COURT OF COMMON PLEAS
STATE OF OHIO
CUYAHOGA COUNTY, OHIO
STATE OF OHIO

Plaintiff,

vs.
DAMIEN FREEMAN,

Defendant.

CR-01-413757-ZA
Journal Entry
DEFENDANT IN COURT WITH COUNSEL
DARYL DENNIE. PROSECUTING ATTORNEY
EDWARD WALSH ALSO PRESENT. DEFENDANT
WAS ADVISED OF ALL CONSTITUTIONAL
RIGHTS AND PENALTIES.
DEFENDANT RETRACTS FORMER PLEA OF
NOT GUILTY AND ENTERS A PLEA OF GUILTY TO
MURDER ORC 2903, 02 (B) SENATE BILL TWO AS
CHARGED IN COUNT ONE.
COURT FINDS DEFENDANT GUILTY. COUNTS
TWO AND THREE ARE NOLLED.

41a
DEFENDANT AND PROSECUTOR ADDRESS
THE COURT.
THE COURT CONSIDERED ALL OF THE
REQUIRED FACTORS OF THE LAW.
THE COURT FINDS THAT PRISON IS
CONSISTENT WITH THE PURPOSES OF R. C.
2929.11.
THE COURT IMPOSES A PRISON TERM AT
LORAIN CORRECTIONAL INSTITUTION OF 15
YEARS TO LIFE. DEFENDANT TO RECEIVE 103
DAYS JAIL TIME CREDIT, TO DATE. POST
RELEASE CONTROL IS PART OF THIS PRISON
SENTENCE FOR THE MAXIMUM PERIOD
ALLOWED FOR THE ABOVE FELONY (S) UNDER
R. C. 2967.28. DEFENDANT IS TO PAY COURT
COSTS.
/s/___________________________
JUDGE WILLIAM J. COYNE
I CERTIFY the above to be a true copy of the said
Judgment and Sentence. Given under my hand and
seal of said Court this 14 day of Dec., 2001.
GERALD E. FUERST, Clerk, By
Deputy
Pursuant to the within order and sentence of the
Court, I did convey the within named
,
to
on,
, 2001.
GERALD T. MCFAUL, Sheriff, By
Deputy Sheriff.

